                                                                    IG-U-044




        UNITED STATES INTERNATIONA.L TRADE COMMISSION

                               WASHINGTON, DC 20436




September 29, 1997

MEMORANDUM

TO:           Commission                          . /.   LA
FROM:         Inspector   Genert~~/l
SUBJECT:      Inspection Report 05-97: Examination of Reported Changes in Commission
              Ratios of Supervisors to Employees

This inspection was initiated in response to a referral to our' office in November 1995 that
the Office of Operations had an excessively high number of supervisors and the
supervisory ratios were wasteful. We deferred taking action on this referral since the
Commission was planning a Reduction-in-Force (RtF) in January 1996 that could have had
a significant impact on the ratio. The objectives of this inspection were to determine the
Commission's supervisory ratios before and after the RIF, and to evaluate whether the
current ratios are excessive based on existing federal policy and guidance as well as the
Commission's size and operations.

We found that, as of June 1997, the Commission's supervisory ratio was 1-to-4.7 based
upon the number of supervisory positions designated in accordance with definitions set
forth in Federal law and regulations. This ratio is less than the government-wide ratio of1-
to-7 and far less than the 1-to-15 ratio suggested by the National Performance Review
(NPR). The ratio has remained basically unchanged since 1993 and was not affected by
the RIF. Most supervisors thought the current supervisory ratio was appropriate, and the
NPR suggested ratio was excessive considering the nature of the Commission's operations.

The NPR also had a goal to halve the number of supervisors in five years. In approximately
four years, the Commission reduced the number of supervisors from 80 to 61, significantly
less than the goal. We identified very few positions that were reclassified from
supervisory to non-supervisory.
The Commission and office supervisory ratios were low even though the Commission
commonly uses the team concept which should enable it to have fewer supervisors
according to the NPR. We believe this is primarily due to that supervisory responsibilities
are often needed to justify grade levels.

We agree with the tentative plans a few supervisors had for reclassifying supervisory
positions and believe a review of certain positions to verify the supervisory designations
would be beneficial. However, these efforts will likely have only a minimal effect on the
Commission's supervisory ratio. A real difference would require wide-scale changes such
as significantly fewer divisions and/or branches, or elimination of supervisors at the branch
level.

The Commission apparently intended to evaluate such changes as part of the Streamlining
Plan which included planned actions to review and assess possible reorganization plans
and other initiatives to achieve adequate and effective supervisor to employee ratios. If
the Commission did an evaluation and decided to restructure the orqanization. the changes
should be reflected in different reporting and oversight responsibilities for staff, and not
simply be a paperwork exercise desiqned to achieve a larger span of control.

Scope

This inspection was conducted from June through September 1997. We interviewed .stetf
in the Office of Personnel concerning definitions of and statistics on supervisors and to
review position descriptions. We interviewed 30 of the 59 employees identified as
supervisors as of June 24, 1997, for their opinions on the Commission's organizational
structure and supervisory ratios. The supervisors included office directors, division
directors, and branch chiefs from the Offices of the Secretary, External Relations, General
Counsel (OGC), Operations, Economics (Eel, Industries, Information Services (OIS),
Investigations, Tariff Affairs and Trade Agreements (TATA), Unfair Import Investigations
(OUII), Administration, Finance and Budget (OFB), and Management Services (OMS).

We contacted multiple organizations for guidance and inf.ormation relating to supervisory
ratios. These included: the Office of Management and Budget (OMB); the Executive Office
of the President; the U.S. Office of Personnel Management (OPM); the U.S. Department of
Labor, Bureau of Labor Statistics; and the U.S~ Department of Commerce, Office of Federal
Statistical Policy and Standards.

We reviewed the following documents for guidance: Title 5, U.S.C. 7103; OMS Circulars
No. A-11, Budget Preparation; the OPM General Schedule Supervisory Guide; the Federal
Personnel Manual Supplement 292-1, Data Element Standards; the Bureau of Labor
Statistics' Occupational Outlook Handbook and Occupational Employment Statistics; the
Department of Commerce's Standard Occupational Classification Manual; President
Clinton's memorandum "Streamlining the Bureaucracy" dated September 11 ,1993; and
various NPR reports. We also reviewed the Commission's Streamlining Plan and a
Comparative Staffing Study.




                                               2
Background

As of June 21, 1 997, the Commission had 347.5 funded permanent positions, of which
336.5 were filled, excluding the Commissioners, who were designated as supervisors, and
their staff were not included in the statistics for this report.

Of the funded permanent positions, 61 were classified as supervisors. According to
OPM's automated Central Personnel Data File (CPDF), as of June 24, 1997, 59 of the filled
positions were supervisors. The Chief of the Budget Division was not listed in the CPDF,
but was classified as a supervisor on the position description. The Office of Personnel said
that the position description was properly marked, and there apparently is an error in the
CPDF which will be corrected. Of the eleven vacant positions, the Director of Economics
was supervisory.

Nearly all office directors, division chiefs, and branch chiefs were supervisory positions as
shown on Figures 1 and 1a. A few organizational entities had no supervisory positions
(positions in red), and some supervisors were not the head of an entity (positions in blue).
The Director of Personnel said that the significant determination is whether the employee
is supervising at least one employee, regardless of being associated with an organizational
entity. Therefore, the EEO Director and Trade Remedy Assistance Officer are the heads of
an organizational entity but do not qualify as. supervisors. Conversely, employees who are
not the head of an organizational entity can qualify as a supervisor if they are responsible
for at least one employee, such as the Offset Duplicating Press Supervisor in OMS.

The Commission had 18 offices, 23 divisions, and 16 branches at the time of our review,
as shown in Figures 2 and 2a. Commission policy does not address establishing
organizational entities. The mission and function statements only address offices.

Official data on the number of employees reporting to the head of these entities was not
readily available. Each employee's position description sets forth to whom the position
reports, but this was not always stated in a way to clearly identify the supervisor. For
example, a position description referencing. lithe supervisor" could be interpreted as either
the division chief or the office director. Based on interviews with selected supervisors, a
review 'of selected position descriptions, and adjustments for part-time positions, we
estimated the number of employees reporting to the head of each entity as shown in
Figures 1 and 1a. Changes made subsequent to our field work, such as those in the OGC,
are discussed in the body of this report.

The estimates in Figures 2 and 2a are based on employee assignments to organizational
entities as shown in the Commission's Telephone Directory. The figures differ from Figures
1 and 1a because employees do not necessarily report to the head of the organizational
entity to which they belong.

The General Counsel questioned our use of funded Full Time Equivalent (FTE) positions for
the calculation of supervisory ratios. She commented that the omission of certain
personnel, such as temporary employees, from the calculation of supervisory ratios may
understate the agency's need to retain that supervisor. Also, part-time employees can at
times produce more work than their treatment as half an FTE would suggest. These factors
might be relevant in justifying a supervisory position, but could not be readily quantified to
be reflected in our report.

                                              3
Definition of supervisor"
             II




The official definitions for a supervisor and a manager in the Federal government are set
forth in Title 5, U.S.C. 7103 (a) (10) & (11) as follows:

       SUPERVISOR - An individual ... having authority ... to hire, direct, assign, promote,
       reward, transfer, furlough, layoff, recall, suspend, discipline, or remove employees,
       to adjust their grievances, or to effectively recommend such action, if the exercise
       of the authority ... requires the consistent exercise of independent judgement. .. ;

       MANAGEMENT OFFICIAL - An individual ... in a position the duties and
       responsibilities of which require or authorize the individual to formulate, determine,
       or influence the policies of the agency;

The Office of Personnel determines whether an employee is a supervisor in accordance
with the criteria established in the General Schedule Supervisory Guide used for the
classification of position descriptions. The position description is coded, the code is
recorded on a Standard Form 52 and entered into the personnel management system, and
the information is transmitted to the CPDF. Since March 1994, both supervisors and
managers have been assigned the same code for entry in the CPDF.

According to the Office of Personnel, an employee must be responsible for the technical
and administrative supervision of at least one employee to be designated a supervisor (a
prior aPM policy that "an employee must supervise a minimum of three employees to be
designated a supervisor was eliminated years ago). Most managers meet this criteria, but
managers who do not meet this criteria are technically not supervisors. Since the
documentation available did not readily identify managers with no employees to supervise
and few employees would fall into this category, we included all employees identified on
the CPDF list as supervisors.                                                     "  .

Employees may have titles in addition to the official title on the position description, that
may imply that they are supervisors. For example, a title could relate to the Commission's
organizational structure, such as an office director, division chief, or branch chief, or group
leader; some of these positions do not have employees reporting to the head of the unit.
Employees also routinely accept leadership responsibilities delegated to them in roles such
as project or team leaders; these employees provide technical guidance and training for
team members, but are not necessarily supervisors.

NPR suggested supervisory ratio

The NPR report, issued in September 1993, recommended that the Federal government
reduce the number of positions associated with management control structures by half
over a five year period. As part of this initiative, the NPR suggested that the President
should establish a government-wide goal of increasing the span of control from 1-to-7 to
1-to-15. Doubling the span of management control also supported another NPR goal to
reduce structures of central management control.

 The supervisors interviewed consistently said that the NPR suggested ratio was not
 appropriate for the Commission. In summary, the supervisors said that expanded
 supervisory spans of control may work for organizations with assembly line work loads,

                                               4
but the Commission is a complex agency, with a technical mission that requires technical
management oversight to produce consistent work products of quality and integrity.

The Director of Industries, whose office has the most employees and branches, expanded
on why the suggested ratio was not appropriate for the Commission. He said that when
the branch size reaches eight or nine analysts, the branch chief's workload becomes
excessive and comprehensive guidance, training, and reviews cannot be provided.
Technical review of analysts work by a supervisor that is knowledgeable in the subject
field is critical, particularly in a period of downsizing since the overall number of analysts
declines but the workload and complexity of tasks do not. Further, the Commission is
increasingly hiring new analysts at the entry level, which means guidance and training is
even more vital.

In December 1995, the Committee on Government Reform and Oversight issued a report
entitled "Making Government Work: Fulfilling the Mandate for Change" that supports the
comments made by the office directors. The Committee questioned the validity of the
private sector ratios and the application of the ratio to the Federal government's widely
varying missions. In the Committee's view, the span of control should remain a
management prerogative, based on the complexity of the work involved and not some
arbitrary standard.

Streamlining Plan

In a memorandum dated September 11, 1993, the President directed agencies to prepare
streamlining plans consistent with the NPR's recommendation to reduce the executive
branch civilian workforce by theclose of FY 1999. The plan was to specifically address
how the agency would reduce the ratio of managers and supervisors to other personnel,
with a goal of reducing the percentage of supervisors in halving the current' ratio in five
years.

The Commission submitted a Streamlining Plan to OMS on November 30, 1993, that
described how the Commission planned to meet the OMS assigned reduced staffing
ceilings. The plan's actions for streamlining organizationally primarily addressed staff
reductions. Actions pertinent to supervisory ratios were that the Commission would
review and assess possible reorganization plans to achieve efficiency and economy and
initiatives to achieve adequate and effective supervisor to employee ratios.

A report was not prepared on the accomplishments of the Streamlining Plan, which was
merged with the Commission's Strategic Plan. We found that the overall streamlining goal
to reduce staff was achieved through attrition and the RIF in January 1996, but the goals
of halving the number of supervisors and an increased supervisory ratio have not been
achieved.

        -- In September 1993, the Commission had 416 FTE positions; the Office of
        Personnel identified 81 employees as supervisors. The Commission would have to
        eliminate 40 supervisory positions by September 1998 to achieve the NPR goal to
        halve the number of agency supervisors five years after the NPR was issued. As of
        August 1997, the Commission had eliminated 21 supervisory positions, mostly as
        part of reorganizations, and has no definite plans to eliminate any additional
        positions.

                                                5
       -- The supervisory ratio has virtually not changed since September 1993, when the
       supervisory ratio was 1-to-4.1. As of June 21, 1997, the Commission had a
       supervisory ratio of 1-to-4.6.

We identified only three positions where the supervisory designation was reclassified, as
follows:

       -- One GS-15 supervisory assistant general counsel position was reclassified as a
       staff attorney with no supervisory responsibilities. The reclassification did not
       reduce the grade of the incumbent because the full performance level of a non-
       supervisory attorney is GS-15.

       -- As part of the Office of External Relations reorganization, position descriptions for
       the Congressional Liaison and Director of Public Affairs were rewritten and
       classified as non-supervisory.

The Director of Operations stated that over the past five years, Commission managers
have periodically examined layers of review and whether they could be reduced. Each
time, the conclusion was that elimination of supervisory positions would not benefit the
budget. For example, he considered whether to eliminate branch chiefs, but rejected the
idea because the employees would retain their grades based on non-managerial duties or
the historical practice to administratively classify positions to avoid downgrades related to
reorganizations. Therefore, no budget savings would be realized.

Our review of selected position descriptions indicated that points for supervision were
needed to justify the grade levels for the branch chiefs, so budget savings are possible.
Even if administrative classifications resulted in no budget savings, increased efficiency
should be possible. For example, several supervisors in the Office of Administration said
the staffing of both branch chiefs and division chiefs in the Office of Operations with
supervisors created multiple layers of review for administrative functions that was not
needed. The Office of Operations disagreed that increased efficiency would necessarily
occur with fewer supervisors.

The Commission's experience is similar to that government-wide according to a report
issued by the General Accounting Office (GAO). The GAO study concluded that while
civilian, employment in executive agencies declined about 10 percent (230,500 employees)
from January 1993 to March 1996, the proportion of management positions to the total
work force stayed roughly the same. The supervisory ratio changed minimally from 1-to-7
to 1-to-7.6 because while agencies reduced the number of management positions
substantially, they also eliminated a large number of non-supervisory jobs.

Comparative Staffing Study

The Office of Operations prepared a Comparative Staffing Study in September 1995
comparing the Commission and agencies of similar size and responsibilities. Various
employees referred to this review when we asked whether the Commission had conducted
any studies relevant to supervisory ratios.

The study had graphs with ratios of support to core employees, Senior Executive Service
(SES) and General Schedule (GS) to total employees, and GS to SES employees. The study

                                               6
concluded that the ITC: 1) was at or below the staffing averages in areas reviewed; 2) did
not have excessive staffing in overhead areas defined by the NPR; and 3) consistently
ranked within established guidelines. The graphs indicated the Commission's statistics
were comparable to other agencies, but had no information on how the statistics related to
NPR guidelines. We could not determine how the conclusions were reached because a
record of the methodology was not available. The Director of Personnel said that he was
not involved in the study and the statistics were not based on supervisory designations in
the CPDF.

Commission supervisory ratios

As of June 21, 1997, the Commission had a supervisory ratio of 1-to-4.7 for funded
positions and a ratio to 1-to-4.6 for filled positions. As shown in the attached schedules,
the office ratios ranged from 1-to-2 to 1-to-7.8. The Commission and office ratios were
significantly less than that suggested by the NPR of 1-to-1 5.

The RIF had virtually no impact on the Commission's supervisory ratio. In January 1996
(before the RIF), the Commission had a supervisory ratio of 1-to-3.9. In February 1996 (post
RIF), the Commission had a supervisory ratio of 1-to-3.8. Similarly, the ratio for the Office
of Operations, which was named in the referral to our office, changed minimally from 1-to-4.6
to 1 -to-5 .1.

Appropriateness of Commission-wide and office supervisory ratios

Most supervisors said the current ratio of their entity was appropriate, for reasons discussed
in the section on the NPR suggested ratio.

Two supervisors said their current ratios were too low, as follows:

       -- The Chief of the Country and Regional Analysis Division, EC said that two
       supervisory positions could be eliminated because the staff is seasoned and has very
       low turnover. Elimination of the two supervisory positions would change the
       supervisory ratio of the division from 1-to-4 to 1-to-1 5.

       -- The Director, OFB and the Director of Administration said they are exploring ways
       to reorganize OFB. The Budget Division has a supervisory employee responsible for
       one employee and the Finance Division has a supervisor responsible for four
       employees. Elimination of one supervisory position would change the supervisory ratio
       of the office from 1-to-1. 7 to 1-to-3.

Two supervisors said their supervisory ratios were too high, as follows:

       -- The Chief of the Research Division, EC said that his ratio of 1-to-1 0 is too high and
       he is exploring the option of establishing two branch chiefs.

       --The Chief of the Statistical and Editorial Services Division, OIS said his ratio of 1-to-
       12 is too high and he does not have enough time to perform his supervisory
       responsibilities.




                                               7
We identified two offices for which .we believe the number of supervisors could be decreased:

       -- The OGC had seven supervisors on the CPDF as of June 24, 1997. From 1994
       through August 1997, the OGe centralized various administrative functions, such as
       ratings, to be performed by the Deputy General Counsel (DGC) based on input from
       and recommendations of the Assistant General Counsels and Supervising Paralegal
       Expert. All staff attorneys "reported" at various times (or at the same time) to the
       General Counsel, DGC, or Assistant General Counsels depending on the mix of
       assignments.

       We believe three supervisors were functioning as team leaders in providing technical
       guidance to team members and input on evaluations, and their supervisory
       designations could have been changed. The General Counsel said that before making
       the change i~ 1994, they ascertained that the centralized arrangement would not
       jeopardize the supervisory status of the Assistant General Counsels. Changing the
       designations would have had minimal budget impact because the attorney's grades are
       not dependent on the supervisory designation.

       As of August 18, 1997, the responsibility for preparing evaluations for staff attorneys
       was shifted in part to the Ass.istant General Counsels because the execution of
       performance ratings for attorney advisors by one supervisor would be unworkable
       when the office expands to accommodate the sunset reviews. The position
       descriptions of the DGC and Assistant General Counsels are being revised to reflect
       this change. The Supervising Paralegal Expert was assigned responsibility for preparing
       evaluations for the paralegal team.

       The General Counsel agreed that the Law Librarian has no supervisory functions. His
       position description and classification are being changed. When the change is
       effective, the number of supervisors will decrease to six and the supervisory ratio will
       change from 1-to-4. 3 to 1-to-5. 2.

       -- T AT A had two supervisors. The T AT A Director said all employees reported to
       him for a supervisory ratio of 1-to-1 3. The Chief of the Publication Division was a
       supervisor although the other two divisions in T AT A had no supervisors. The
       Director of Personnel said that the TATA Director had contacted him last year about
       doing an organizational and classification review of his office and said he would
       submit a request through channels. Eliminating one supervisory position would
       increase the office ratio from 1-to-6 to 1-to-1 3.

We also identified one office for which we believe the number of supervisors should be
increased. The Administrative Law Judges (ALJs) had no designated supervisors. The
Chief ALJ was a supervisory position. An acting Chief ALJ has not been designated and
both ALJs have assumed supervisory responsibilities for employees. This situation could be
resolved either by designating an acting Chief ALJ or designating both ALJs as
supervisors.




                                              8
OMB procedures

OMS Circulars No. A-11 for the FYs 1995 through 1998 budgets provided for agencies
with more than 250 FTE to submit a schedule on positions targeted by the NPR, which
included supervisors. The Commission did not submit these schedules.

The Director, OFB said that the schedules were not submitted because the actual FTE was
less than the NPR goal, which was true. The OMS Budget Examiner for the Commission
confirmed that a report was not needed, although she could not positively state that the
Commission had ascertained this in advance.

Providing the information could have been problematic because the description of a
supervisor did not conform with the legal definition. The description was:

       FTEs that perform supervisory functions including any SE5, GM- or GS-13, 14, or
       15 that supervise two or more employees and anyone, regardless of grade, that
       supervises three or more employees.

We did not attempt to relate the supervisory positions in the CPDF to the FTE meeting the
OMS definition. The numbers may be different, but we believe the overall result would be
similar to our finding that the number of supervisors has not been halved.

Suggestion

We suggest that the Director of Personnel correct the designation of the Budget Chief in
the CPDF; and the General Counsel, Director of TATA, and the ALJ coordinate with the
Director of Personnel to ensure supervisory positions are properly designated.




                                             9
                                                                                    Schedule 1



                                 SUPERVISORY RATIOS
                                FOR FUNDED POSITIONS
     Office           Number of          Number of             Number of       Supervisor/
                     Supervisors "*    Employees for           Supervised       Employee
                                       each Office"*"*        Employees for       ratio
                                                               each Office

       SE                  3                 14                    11             1/3.7
       ER                  1                5.5                    4.5            1/4.5

      ALJ                  0                  7                     7              0/7

       GC                  7                 37                    30             1/4.3

      EEO                  0                  1                     1              OJ1

       IG                  1                  3                     2              1/2

       OP                 39                240                   201             1/5.2

               EC                 7                  39                   32      1/4.6

               ID                17                 108                   91      1/5.4

              INV                 5                  28                   23      1/4.6

                IS                4                      35               31      1/7.8

            TATA                  2                      14               12       1/6

              DUll                3-                     12                9       1/3

       AD                  10                40                    30              1/3

               FB                 3                       8                5      1/1.7

              MS                  5                      23               18      1/3.6

               PN                 1                       7                6       1/6

     TOTAL:               61               347.5                  286.5           1/4.7

*FTE as of 6/24/97 per adjusted CPDF
* * Source: Report on Certain Resource Transactions for the Week Ending 6/21 /97




                                              10
                                                                                      Schedule 1a



                                 SUPERVISORY RATIOS
                                 FOR FILLED POSITIONS

     Office            Number of            Number of             Number of       Supervisorl
                      Supervisors *       Employees for           Supervised       Employee
                                          each Office * *        Employees for       ratio
                                                                  each Office

       SE                   3                   14                    11             1/3.7

       ER             '!'
                            1                  5.5                    4.5            1/4.5

      ALJ                   0                    6                     6              0/6

      GC                    7                   37                    30             1/4.3

      EEO                   0                    1                     1              0/1

       IG                   1                    3                     2              1/2

       OP                   38                 231                   193             1/5.1

               EC                 6                         38               32      1/5.3

                 ID              17                    103                   86      1/5.1

               INV                5                         27               22      1/4.4

                 IS               4                         35               31      1/7.8

            TATA                  2                         14               12       1/6

              'OUII               3                         11                8      1/2.7

       AD                   10                  39                    29             1/2.9

                FB                3                          8                5      1/1.7

               MS                 5                         22               17      1/3.4

                PN                    1                      7                6       1/6

   Sub-Totals:              60                336.5                  276.5           1/4.6
   Vacancies                1                   11                    10

    TOTAL:                  61                34.7.5                 286.5           1/4.7

*FTE as of 6/24/97 per adjusted CPDF
* * Source: Report on Certain Resource Transactions for the 'Week Ending 6/21/97



                                                 II
                                                                       OPERATIONS


                IS                           ID                  INV                              TATA                         QUII          EC
                 5                            9                                                    1)                               L2 Snpv. 4
                                                                               r---------~                                      I    i\ nornevs
                                                                                     Nomenclature and Trade                               8
                                                                       Legal Division Agreements Division Publication Division

Information         Statistioal and                                                                                    Financial Analysis
  Systems Library Editorial Services Investigative               Investigative          Investigative     Investigative and Accounting
  Division Services    Division       Division A                  Division B             Division C        Division D      Division
     10       7             12             4                           4                      4                    3                 5
                                                                   I                               1                       I             I
                                          Minerals, Metals, Machinery, Services, Electronics, Applied  Country and
 Agrieulture and Forest Energy, Chemicals,    and Miscellaneous         and Transportation Economics Regional Analysis Research
  Products Division and Textiles Division Manufactures Division              Division         Division   Division      Division
           6
            A2ricultural Crops
                 Branch
                                5    I




                                     ~ Textiles and
                                                      17


                                              Appare~Branch
                                                                               17
                                                                  ~ Industrial Materials and
                                                                       Nonferrous Metals Branch
                                                                                                  I
                                                                                                 11         14
                                                                                                   Electronic Technology
                                                                                                   and Equipment Branch
                                                                                                                          10
                                                                                                                                         Americas/Europe
                                                                                                                                            Branch
                                                                                                                                                  5
                     6                                                             6                         7
                                                                                                                                             AsiaJAfrica
            Animal and Forest        ,OrganiC and Inorganic       ~ Iron and Steel                _SclVice Industries
                                          Chemicals Branch               .   ProdUC~ Branch              Branch                               Branch
            Products Branch
                                                    6                                                       7                                     4
                   5
                                         Energy) Petroleum) Benzeneid
          Fruits) Vegetables) and         Chemicals) and Rubber and L - Miscellaneous             L- Transportation
         Specialty Products Branch              Plastics Branch        Manufactures Branch                Branch
                     6                              6                               7                        6
Figure 1a: Supervisory Positions for the Office of Operations using Position Descriptions
blue = Supervisory positions not associated with an organizational unit red =organizational units with no supervisory positions
                                          COMMISSION/CHAIRMAN
                                                                          9
     J              I              I            I                          I           I              J             I               I
   EEO          SE                ALl          ALl                        AD          IG             ER            GC              OP
     o          1


                _
                 4
                      Hearings and
                                   2            3                          4           2             4t             6               8
                                                                                                                                    see
                    Publications Branch
                            ~
                                                                                                Trade Remedy                       next
                                                                                               Assistance Office
                         Docket                                                                                                    page
                         Branch                                                                        o            _     Deputy GC
                            6
                                                                                                                              24

                                                                                                                    Assistant GC-~-\dmin
                                  Management                         Finance                                        -- 5
                                   Services                        and Budget          Personnel
                                                                                           6                            2 Assistant GCs
                                                                           2
                                                                                                                              o
                                                                           I
                                                                                                                    Supervising Paralegal
                    Facilities Planning and
                    Support Procurement Publishing Finance                     Budget                                      Expert
                    Division     Division   Division Division                  Division                                       o
                        5            6           r      4                         1                                     Law Librarian
                                                 L   Offset Duplicating
                                                     Press Supervisor
                                                                                                                             1

                                                             1



Figure 1: Supervisory Positions for the Commission using Position Descriptions
blue = Supervisory positions not associated with an organizational unit red = organizational units with no supervisory positions
                                            COMMISSION/CHAIRMAN
                                                                        9

 I            I                         I                I                  I              I           ]            I       I
EED           SE                    ALl             ALl                 AD             IG            ER            GC     DP
 o            4                         2                3                  4              2         4.5           37      8
                                                                                                                          See
                     Hearings and
                  Publications Branch                                                                                     next
                           3                                                                                              page
                                                                                                Trade Remedy
                        Docket                                                                 Assistance Office
                        Branch
                           6
                                                                                                      o



                  Management                                       Finance and
                   Services                                          Budget                                   Personnel
                                                                        2                                         6
                      5
                            I                                               I

 Facilities         Planning and
 Support            Procurement             Publishing       Finance            Budget
 Division             Division               Division        Division           Division
     5                    6                     7               4                  1
                                                                               OPERATIONS
                   I                            I                          I                                   I                              I


                 IS                            ID                     INV                                  TATA                            aUII               EC
                  5                             9                          7                                 4                              12                 4
                                                                                                               I

                                                                                     I           Nomenclatu~e and Trade                      I'
                                                                               Legal Division Agreements Division                  Publication Division

Information         Statistical and                                                                                             Financial Analv sis
  Systems Library Editorial Services Investigative                        Investigative          Investigative     Investigative and Accounting
  Division Services    Division       Division _A                          Division B             Division C        Divisioll D     Division
     10       7            12              4                                    4                      4                    3                     5
                                                                                                                                                      I
                                          Minerals , Metals , Machinerv'" , Services, Electronics, Applied  COll11tlJ- and
 Agriculture and Forest Energy, Chemicals,    and Miscellaneous              and Transportation Economics Regional Analysis Research
  Products Division and Textiles Division Manufactures Division                   Division         Division   Division      Division
           6                    5
             .Aaricu ltural Crops
                   Branch
                                        r-
                                        I              17
                                                   Texliles and
                                                 APpare~ Branch
                                                                          f1        I 7               11
                                                                                Industrial Materials and
                                                                               Nonferrous ~etals Branch
                                                                                                                 14            10
                                                                                                            Electronic Technology
                                                                                                            and Equipment Branch
                                                                                                                                                      .An1 ericas/Europe
                                                                                                                                                            Branch


                                                                          I
                       6                                                                                               7                                       5

             Animal and Forest                                                                                Service Industries                          Asia/Africa
                                        ,OrganiC and Inorganic                      Iron and Steel
              Products Branch                   Chemicals Branch                   Pro du ct; Bran ch              Branch                                  Branch
                       5                                6                                                              7                                       4

                                            nergy, Petroleum. Benzenoid
           Fru its, Veg etab les, and       Chemicals, and Rubber and               Miscellan eou S        ~ Transportation
          Specialty Products Branch               Plastics Branch                 Manufactures Branch              Branch
                       ,..
                       0                                6                                   i                         6
Figure 2a: Organizational Entities with the approximate number of employees supervised by the head of the entitiy
                                              COMMISSION/CHAIRMAN
                                                                              9
     J              I              I             I                            I           I            J            I                   I
  EEO          SE                 ALJ          ALl                            AD          IG           ER           GC                 OP
    o          1


                _
                   4
                      Hearings and
                                   2            3                              4           2           4t            ~                  8
                                                                                                                                       see
                    Publications Branch
                             3                                                                   Trade Remed~·                        next
                                                                                                Assistance Office
                         Docket                                                                                                       page
                         Branch                                                                         o            _     Deputy GC
                             6
                                                                                                                              24

                                                                                                                     Assistant GC-.:\.dmill
                                  Management                               Finance                                   --        5
                                   Services                              and Budget        Personnel
                                                                                               6                         2 . Assistant GCs
                                                                               2
                                                                                                                                o
                                                                               I
                    Faoilities Planning and                                                                          Supervising Paralegal
                    Support Procurement Publishing Finance                         Budget                                    Expert
                    Division        Division   Division         Division           Division                                     o
                         5                6          r               4                1                                  Law Librarian
                                                     L   Offset Duplicating
                                                         Press Supervisor
                                                                                                                              1

                                                                 1



Figure 1: Supervisory Positions for the Commission using Position Descriptions
blue = Supervisory positions not associated with an organizational unit red = organizational units with no supervisory positions
                                                                             OPERATIONS
                 I                            I                          I                                    I                       I               I
               IS                            ID                     INV                                   TATA                       DUll       EC
                5                             9                                                            1)                          L2 Supv. 4
                                                                                      I-----r                                         I   Attorneys
                                                                                           Nomenclature and Trade                 8 ·
                                                                             Legal Division Aareements Division Publieation Division
                                                                                                     '-




Information         Statistioal and                                                                                             Finanoial Analysis
  Systems Library Editorial Services Investigative                      Investigative           Investigative      Investigative and Acoounting
  Division Services    Division       Division A                         Division B              Division C         Division D       Division
     10       7             12             4                                  4                       4                     3             5
                                          Minerals, Meials, Maohine ry, SelVioes}leotronios, Appli~d    Count~ and
 Agriculture and Forest Energy, Chemicals,    and Miscellaneous          and Transportation Economics Regional Analysis Research
  Products Division and Textiles Division Manufactures Division               Division       Division     Division      Division
           6
            Aericultural Crops
                 Branch
                                5    I




                                     ~ Textiles and
                                      Apparel Branch
                                                      /7                        I 7             11
                                                                        ~ Industrial Materials and
                                                                             Nonferrous Metals Branch
                                                                                                          I  14            10
                                                                                                            Electronic Technology
                                                                                                            and Equipment Branch
                                                                                                                                              Americas/Europe
                                                                                                                                                 Branch
                                                                                                                                                     5
                     6                                4                                    6                         7
                                                                                                                                                Asia/Africa
            Animal and Forest        ,Organic and Inorganic             ~ Iron and Steel                  _Service Industries
             Products Branch             Chemicals Branch                      .    ProduC~ Branch              Branch                           Branch
                    5                                 6                                                              7                                4

                                         Energy, Petroleum, Benzenoid
          Fruits, Vegetables, and         Chemicals, and Rubber and     L- Miscellaneous                  l -Transportation
         Specialty Products Branch              Plastics Branch                    Manufactures Branch             Branch
                     6                                6                                    7                          6
Figure 1a: Supervisory Positions for the Office of Operations using Position Descriptions
blue = Supervisory positions not associated with an organizational unit red = organizational units with no supervisory positions
                                                                   COMMISSION/CHAIRMAN
                                                                            9

       I                    I                              I                      I                              I                   I                      ]              I       I
      EEO                SE                              ALJ                     ALJ                            AD                  10                    ER              OC      OP
       o                  4                               2                       3                              4                   2                    4.5
                                                                                                                                                           I
                                                                                                                                                                          37       8
                                                                                                                                                                                  See
                                    Hearings and
                                 Publications Branch                                                                                                                             next
                                            3                                                                                                                                    page
                                                                                                                                                 Trade Remedy
                                        Docket                                                                                                  Assistance Office
                                        Branch
                                            6
                                                                                                                                                           o



                                 Management                                                        Finance and
                                      Services                                                       Budget                                                        Personnel
                                                                                                                 2.                                                      6
                                            5
                                                I                                                                I

       Facilities                     Planning and
       Support                        Procurement                      Publishing       Finance                          Budget
       Division                         Division                        Division        Division                         Division
           5                                 6                             7               4                                1
r-~        "'"'-   r"\   :_ .....~:     1 L_"':"':""", .... :..."" ...""-   .. _'v;rv\",+n   ""I~ht"\r   no-F   orY\nln\loo~   ~llnQr\liC!QrI   h\l tho   ho~n   nf thA Antitv
                                                                         OPERATIONS
                 I                             I                     I                                   I                          I                  I
                                             ID                     INV                              TATA                        QUII                EC
                IS
                 5                            9                      7                                 4                          12                   4
                                                                               I       N    omenclatu~e
                                                                                                   and Trade          I'
                                                                         Legal Division Agreements Division Publication Division

Information         Statistical and                                                                                        Financial Al1al~~ sis
  Systems Library Editorial Services Investigative                  Investigative         Investigative       Investigative and Accounting
  Division Services    Division       Division _A                    Division B            Division C           Division D       Division
     10       7             12             4                              4                     4                    3              5
                                                                     I                                -.                                      I
                                           Minerals, Metals, Machinery, Services, Electronics, Applied  Country and
 Agriculture and Forest Energy, Chemicals,     and Miscellaneous         and Transportation Economics Regional Analysis Rescarc
  Products Division and Textiles Division Manufactures Division               Division         Division   Division      Divisio:
           6
            Aaricu Itural Crops
                 Branch
                                5
                                      I
                                      I                17
                                                  Textiles and
                                                _-\.ppare~ Branch
                                                                                I 7


                                                                     ~ Industrial Materials and
                                                                          Nonferrous ~elalS Branch
                                                                                                  11         14            10
                                                                                                       Electronic Technology
                                                                                                       and Equipment Branch
                                                                                                                                          -
                                                                                                                                              .Am ericas/Europ e
                                                                                                                                                    Branch
                     6

             Animal and Forest
             Products Branch
                     5
                                      ,OrganiC and Inorganic
                                           Chemicals Branch
                                                        6
                                                                     I         Iron and Steel
                                                                              Product; Branch
                                                                                                     --
                                                                                                                  7

                                                                                                         Service Industries
                                                                                                              Branch
                                                                                                                  7
                                                                                                                                                       5
                                                                                                                                                  Asia/Africa
                                                                                                                                                    Branch
                                                                                                                                                      4

                                          Energy, Petroleum, Bcnzenoid
           Fruits, Vegetables, and         Chemicals, and Rubber and I          Miscellaneous        L - Transportation
          Specialty Products Branch              Plastics Branch             Manufactures Branch              Branch
                      6                                 6                             7                          6

Figure 2a: Organizational Entities with the approximate number of employees supervised by the head of the entitiy
